             DEPARTMENT OF HEALTH AND HUMAN SERVICES                              Office oflnspector General
                                                                                   Office of Audit Services

                                                                                        REGION IV
                                                                            61 Forsyth Street, S.W., Suite 3T41
                                                                                 Atlanta, Georgia 30303



                                      October 9,2008

Report Number: A-04-07-07023

Lynda Dutton, CPA
Deputy Administrator for Administrative Services
Division of Medicaid, Office of the Governor
550 High Street, Suite 1000
Jackson, Mississippi 39201

Dear Ms. Dutton:

Enclosed is the U.S. Department of Health and Human Services, Office ofInspector
General (OIG), final report entitled "Follow-Up Review of the Medicaid Drug Rebate
Program in Mississippi." We will forward a copy of this report to the HHS action official
noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters
reported. We request that you respond to this official within 30 days from the date of this
letter. Your response should present any comments or additional information that you
believe may have a bearing on the final determination.

Pursuant to the principles ofthe Freedom ofInformation Act, 5 U.S.c. § 552, as amended
by Public Law 104-231, OIG reports generally are made available to the public to the
extent the information is not subject to exemptions in the Act (45 CFR part 5).
Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me,
or contact Andrew Funtal, Audit Manager, at (404) 562-7762 or through e-mail at
Andrew.Funtal@oig.hhs.gov. Please refer to report number A-04-07-07023 in all
correspondence.

                                             Sincerely,



                                             Peter Barbera
                                             Regional Inspector General
                                              for Audit Services

Enclosure
Page 2 - Lynda Dutton

HHS Action Official:

Jackie Gamer, Consortium Administrator
Consortium for Medicaid and Children's Health Operations
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   FOLLOW-UP REVIEW OF THE
    MEDICAID DRUG REBATE
    PROGRAM IN MISSISSIPPI




                    Daniel R. Levinson
                     Inspector General

                      October 2008
                      A-04-07-07023
                    Office ofInspector General
                                     http:// oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance ofHHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments ofHHS programs
and operations. These assessments help reduce waste, abuse, and mismanagement and promote
economy and efficiency throughout HHS.

Office ofEvaluation and Inspections

The Office of Evaluation and Inspections (OEl) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
Specifically, these evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness in departmental programs. To promote impact, the
reports also present practical recommendations for improving program operations.

Office ofInvestigations

The Office of Investigations (01) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of 01 lead to criminal convictions, administrative
sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG's internal operations. OCIG imposes program exclusions and civil monetary penalties on
health care providers and litigates those actions within HHS. OCIG also represents OIG in the
global settlement of cases arising under the Civil False Claims Act, develops 'and monitors
corporate integrity agreements, develops compliance program guidances, renders advisory
opinions on OIG sanctions to the health care community, and issues fraud alerts and other
industry guidance.
                           Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Medicaid drug rebate program, which began in 1991, is set forth in section 1927 of the
Social Security Act (the Act). For a manufacturer's covered outpatient drugs to be eligible for
Federal Medicaid funding under the program, the manufacturer must enter into a rebate
agreement with the Centers for Medicare & Medicaid Services (CMS) and pay quarterly rebates
to the States. CMS, the States, and drug manufactures each undertake certain function in
connection with the drug rebate program. In Mississippi, the Division of Medicaid (the State
agency) administers the Medicaid drug rebate program.

In 2005, we issued a report on the results of audits of the Medicaid drug rebate programs in 49
States and the District of Columbia (A-06-03-00048). Those audits found that only four States
had no weaknesses in accountability for and internal controls over their drug rebate programs.
As a result of the weaknesses, we concluded that States lacked adequate assurance that all ofthe
drug rebates due to the States were properly recorded and collected. Additionally, CMS did not
have reliable information from the States to properly monitor the drug rebate program.

In our previous audit ofthe Mississippi drug rebate program (A-04-03-06015), we determined
that the State agency had adequate controls over its drug rebate program with one exception: it
did not verify the accuracy of the accrual and collection of interest.

The current review of Mississippi is part of a nationwide series of reviews conducted to
determine whether States have addressed the weaknesses in accountability for and internal
controls over their drug rebate programs found in the previous reviews. Additionally, because
the Deficit Reduction Act of 2005 required States as of January 2006 to begin collecting rebates
on single source drugs administered by physicians, this series of reviews will also determine
whether States have complied with the new requirement.

OBJECTIVES

Our objectives were to determine whether the State agency had (1) implemented the
recommendations made in our previous audit of the Mississippi drug rebate program and
(2) established controls over collecting rebates on single source drugs administered by
physicians.

SUMMARY OF FINDINGS

The State agency had corrected the previous weakness by upgrading its computer system to
verify the accuracy of the accrual and collection of interest. However, it had not established
controls over collecting rebates on single source drugs administered by physicians.
RECOMMENDATION

We recommend that the State agency establish controls over collecting rebates for single source
drugs administered by physicians and ensure that the invoiced amounts are collected and/or
resolved.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency's fiscal agent began implementing our
recommendation to start collecting rebates from pharmaceutical manufacturers for single source
drugs administered by physicians on August I, 2007.

The State agency's comments are included in their entirety as the Appendix.




                                                11
                            TABLE OF CONTENTS

                                                      PAGE

INTRODUCTION                                           1

    BACKGROUND...............                          1
        Drug Rebate Program                            1
        Physician-Administered Drugs                   2
        Previous Office ofInspector General Reports    2
        Mississippi Drug Rebate Program                2

    OBJECTIVES, SCOPE, AND METHODOLOGy                 3
         Objectives                                    3
         Scope                                         3
         Methodology.......................            3

FINDINGS AND RECOMMENDATION                            4

    PREVIOUS WEAKNESS CORRECTION                       4

    PHYSICIAN-ADMINISTERED SINGLE SOURCE DRUGS         5

    RECOMMENDATION                                     5

    STATE AGENCY COMMENTS                              5

APPENDIX

    STATE AGENCY COMMENTS




                                       111
                                      INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

Drug Rebate Program

The Medicaid drug rebate program, which began in 1991, is set forth in section 1927 of the Act.
For a manufacturer's covered outpatient drugs to be eligible for Federal Medicaid funding under
the program, the manufacturer must enter into a rebate agreement with CMS and pay quarterly
rebates to the States. CMS, the States, and drug manufacturers each undertake certain functions
in connection with the drug rebate program.

In Mississippi, the Division of Medicaid (the State agency) administers the Medicaid drug rebate
program.

Pursuant to section II ofthe rebate agreement and section 1927(b) of the Act, manufacturers are
required to submit a list to CMS of all covered outpatient drugs and to report each drug's average
manufacturer price and, where applicable, best price. Based on this information, CMS calculates
a unit rebate amount for each covered outpatient drug and provides the amounts to States
quarterly.

Section 1927(b)(2)(A) of the Act requires States to maintain drug utilization data that identify,
by National Drug Code (NDC), the number of units of each covered outpatient drug for which
the States reimbursed providers. The number of units is applied to the unit rebate amount to
determine the actual rebate amount due from each manufacturer. Section 1927(b)(2) of the Act
requires States to provide the drug utilization data to CMS and the manufacturer. States also
report drug rebate accounts receivable data on Form CMS-64.9R. This is part of Form CMS-64,
"Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program," which
summarizes actual Medicaid expenditures for each quarter and is used by CMS to reimburse
States for the Federal share of Medicaid expenditures.




                                                1
Physician-Administered Drugs

Section 6002(a) of the Deficit Reduction Act of2005 (DRA) amends section 1927 ofthe Act
and requires States, as of January 1, 2006, to collect and submit utilization data for single source
drugs administered by physicians so that States may obtain rebates for the drugs. l Single source
drugs are commonly referred to as "brand name drugs" and do not have generic equivalents. In
Mississippi, physician-administered drugs are billed to the State Medicaid program on a
physician claim form. The State agency had not completed preparations for collecting the
rebates associated with these drugs by NDC. To capture the NDCs from the claims, the State
agency requested additional time from CMS and contracted with Affiliated Computer Services
(ACS) to computerize the drug rebate program.

The State agency had not yet billed for rebates on single source drugs administered by
physicians. However, they anticipated being able to bill for rebates on single source drugs soon
and on multiple source drugs by January 1, 2008.

Previous Office of Inspector General Reports

In 2005, we issued a report on the results of audits ofthe Medicaid drug rebate programs in 49
States and the District of Columbia. 2 Those audits found that only four States had no
weaknesses in accountability for and internal controls over their drug rebate programs. As a
result of the weaknesses, we concluded that States lacked adequate assurance that all of the drug
rebates due to the States were properly recorded and collected. Additionally, CMS did not have
reliable information from the States to properly monitor the drug rebate program.

In our previous audit ofthe Mississippi drug rebate program (A-04-03-06015), we determined
that the State agency had adequate controls over its drug rebate program with one exception: it
did not verify the accuracy of the accrual and collection of interest.

Mississippi Drug Rebate Program

The State agency contracted with ACS to perform all drug rebate program functions other than
receiving rebate funds. The State agency had not completed preparations for collecting the
rebates associated with these drugs by NDC. To capture the NDCs from the claims, the State
agency requested additional time from CMS. The State agency had not yet billed for rebates on
single source physician-administered drugs. However, they anticipated being able to bill for
rebates on single source drugs soon and multiple source drugs by January 1,2008.

The State agency reported an outstanding drug rebate balance of$20,414,893 on its June 30,
2006, Form CMS-64.9R. However, $12,217,194 of that amount related to quarterly billings and
was not past due as of June 30, 2006. Of the remaining $8,197,699 that was past due,


IThis provision of the DRA expands the requirement to certain multiple source drugs administered by physicians
after January 1,2008.

Z"Multistate Review of Medicaid Drug Rebate Programs" (A-06-03-00048), issued July 6,2005.



                                                        2
$8,350,3543 was more than 1 year old. For the fiscal year ended June 30, 2006, the State agency
reported rebate billings of approximately $114.3 million and collections of $146.2 million.

   Drug           Quarter          Quarter         Quarter          Quarter         Quarter           Total
  Rebate          Ending           Ending          Ending           Ending          Ending
                06/3012006       03/31/2006      12/31/2005      09/30/2005       06/30/2005
                                                                                   And Prior
                    (A)              (B)             (C)             (D)              (E)             (F)
  Balance       12,217,194         109,084        (184,646)        (77,093)        8,350,354      20,414,893

The current review of the Mississippi drug rebate program is part of a nationwide series of
reviews conducted to determine whether States have addressed the weaknesses in accountability
for and internal controls over their drug rebate programs, which were found in previous reviews.
Additionally, because the DRA required States as of January 2006 to begin collecting rebates on
single source drugs administered by physicians, this series of reviews will also determine
whether States have complied with the new requirement.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether the State agency had (1) implemented the
recommendations made in our previous audit of the Mississippi drug rebate program and
(2) established controls over collecting rebates on single source drugs administered by
physicians.

Scope

We reviewed the State agency's current policies, procedures, and controls over the drug rebate
program and the accounts receivable data reported on Form CMS-64.9R as of June 30, 2006.

We performed our fieldwork at the State agency in Jackson, Mississippi, in July 2007.

Methodology

To accomplish our objectives, we:

    •   reviewed section 1927 ofthe Act, section 6002(a) of the DRA CMS guidance issued to
        State Medicaid directors, and other information pertaining to the Medicaid drug rebate
        program;

    •   reviewed the policies and procedures related to the State agency's drug rebate accounts
        receivable system;

3The total past balance of$8,197,699. (Colunms B-E) was affected by the credit balance (Columns C & D), thus
causing the past due balance to appear smaller than the one year balance (Column E $8,350,354).



                                                       3
   •   interviewed State agency officials and ACS staff to detennine the policies, procedures,
       and controls that related to the Medicaid drug rebate program;

   •   reviewed copies ofFonn CMS-64.9R for the period July 1, 2005, through June 30, 2006;

   •   reviewed accounts receivable records as of June 30, 2006, and interest payments received
       for the quarter ended June 30, 2006;

   •   interviewed ACS staff to detennine the processes used in converting physician services
       claims data into drug rebate data related to single source drugs administered by
       physicians; and

   •   reviewed rebate billings and reimbursements for procedure codes related to single source
       drugs administered by physicians for the period January 1 through June 30, 2006.

We conducted this perfonnance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perfonn the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                           FINDINGS AND RECOMMENDATION

The State agency corrected the previous weakness by upgrading its computer system to verify
the accuracy of the accrual and collection of interest. However, it had not established controls
over collecting rebates on single source drugs administered by physicians.

PREVIOUS WEAKNESS CORRECTION

In our previous audit of the Mississippi drug rebate program, we detennined that the State
agency was not able to verify the accuracy of the accrual and collection of interest.
Subsequently, the State agency corrected this weakness by using a new computer system, the
Drug Rebate Analysis and Management System.

ACS had set up programs to calculate the interest due on late payments and to identify
outstanding amounts due from manufacturers. ACS stated that it reviews interest payments from
prior quarters for accuracy and sends collection letters to manufacturers for any unpaid interest
identified by this review.

As a result of the implementation and upgrade of the new computer system, the State agency
could verify the accuracy of interest payments and had increased its collections of interest,
current and outstanding, in each quarter of our review.




                                                 4
PHYSICIAN-ADMINISTERED SINGLE SOURCE DRUGS

The State agency had not established controls over collecting rebates for single source drugs
administered by physicians, as required by the DRA. During our fieldwork, the State agency had
not started invoicing drug manufacturers for single source drugs. After the completion of our
fieldwork, in August 2007, the State agency began invoicing them.

RECOMMENDATION

We recommend that the State agency establish controls over collecting rebates for single source
drugs administered by physicians and ensure that the invoiced amounts are collected and/or
resolved.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency's fiscal agent began implementing our
recommendation to start collecting rebates from pharmaceutical manufacturers for single source
drugs administered by physicians on August 1, 2007. The State agency had established controls
over collecting rebates and claimed to have collected over $21 million in rebates as of September
2008.

The State agency's comments are included in their entirety as the Appendix.




                                                5
APPENDIX
                                                                                                           APPENDIX




                                                 STATE OF MISSISSIPPI
                                               OFFICE OF THE GOVERNOR
                                                   DIVISION Of MEDICAID

                                                    Or. ROIleIl L.   ~l\IOn
                                                      e.eCUlJve llIrector




September t 6, 2008

Peter J. Barbera
Regional Inspector General tor Audit Services
Office of the Inspector General- Region IV
61 Forsyth Street, S.W., Suite 3'1'41
Atlanta, GA 30303

Repon Number: A-04-07-07023

Dear Mr. Barbera:

I write in response to the draft report of August 15,2008 entitled "Follow-Up Review of the Medicaid
Drug Rebate Program in Mississippi." 1 am pleased to note your conclusion that overall the accrual and
collection of drug rebates and interest is adequate.

With respect to your specitic recommendation regarding establishing controls over collecting rebates for
single source drugs administered by physicians. I am pleased to inform you that the agency's fiscal
agent, ACS, began billing pharmaceutical manufacturers tor single source drugs administered by
physicians on August 1,2007. Since that time the agency has collected over $21,517,824.01. The same
process/controls and computer system, the Drug Rebate Analysis and Management System, is used for
the collection of physician administered drug rebates as is used with the current Mississippi Drug
Rebate Program.

We appreciate the opportunity to review this draft report and provide comments.




pc:    Marit7.a Hawrey, OIG




                    Suite 1000. Walter sm_ BUlldin". 550 H'llh Street, Jackson. MS 39201. (501) 359-6050
